                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: I03110052
                                                                          11          Page 1 of 1



     This matter was opened as part of a Program Income review of conference grants. Initial review
     identified that the grantee' provided questionable responses to our initial review and may have
     used participant support funding for other direct expenses without appropriate approval. Based
     on the initial response, we sent a follow-up request asking for a more detailed response and
     documentation of appropriate approval to transfer participant support funding to other direct
     expenses.

     The grantee provided an adequate response, which included an e-mail fiom the NSF Program
     Officer approving the transfer of participant support funding to other direct expenses. The NSF
     Program Officer confirmed that the expenditures were approved.

     Accordingly, this case is closed.
